  Office of Inspector General
Semiannual Report to Congress
 April 1, 2011 – September 30, 2011




         Board of Governors of
       the Federal Reserve System
             Message from the Inspector General

       On behalf of the Office of Inspector General (OIG) of the Board of Governors of the
Federal Reserve System (Board) and the Bureau of Consumer Financial Protection (Bureau), I
am pleased to present our Semiannual Report to Congress highlighting our accomplishments
and ongoing work for the six-month period ending September 30, 2011.

        On July 25, 2011, I was appointed the Inspector General of the Board and the Bureau.
Since that time, I have made it a priority to meet with Board and Bureau officials to learn more
about their operations and share my vision for the OIG. I have been very impressed by the hard-
working and dedicated individuals with whom I have met, and I look forward to continuing to
engage with all our stakeholders as we look for ways to bring more economy, efficiency, and
effectiveness to both the Board and the Bureau.

        The OIG is currently engaged in its planning process for next year. We are meeting with
agency officials to gain their insight on the most pressing issues they face, which we will factor
into our risk assessment of agency programs and activities when deciding which areas to review.
Our ongoing work has specifically included the Bureau’s startup efforts, and this will continue to
be an area of focus for us as we plan for next year.

        Pursuant to the Dodd-Frank Wall Street Reform and Consumer Protection Act, I am a
member of the Council of Inspectors General on Financial Oversight (CIGFO), which comprises
the Inspectors General of several financial regulatory agencies and facilitates the sharing of
information, with a focus on concerns that may apply to the broader financial sector and ways to
improve financial oversight. The CIGFO generally meets quarterly. During this reporting
period, the CIGFO issued its first annual report highlighting the concerns and recommendations
of the member Inspectors General, as well as issues that may apply to the broader financial
sector.

        On a separate note, we were recently honored to receive two awards from the Council of
the Inspectors General on Integrity and Efficiency. Our report on The Federal Reserve’s Section
13(3) Lending Facilities to Support Overall Market Liquidity: Function, Status, and Risk
Management won an Audit Award for Excellence, and several of our employees are members of
an information technology team that won the Barry R. Snyder Joint Award for their collaborative
work to make sweeping changes to OIG Federal Information Security Management Act review
methodologies to improve agencies’ cyber security infrastructures and controls.

       I would like to thank all the OIG staff for their continued hard work and dedication, and I
look forward to all that we will accomplish in the coming months.

                                            Sincerely,



                                           Mark Bialek
                                        Inspector General
                                        October 28, 2011
Semiannual Report to Congress
  April 1, 2011 – September 30, 2011
Table of Contents
                                                                                                                     Page
Highlights .................................................................................................................1

Introduction ..............................................................................................................3

Overview of the OIG’s Strategic Plan 2011 – 2015 ................................................5

Organization Chart ...................................................................................................6

Audits and Attestations ............................................................................................7

Multi-disciplinary Work at the Board ....................................................................13

Inspections and Evaluations ...................................................................................14

Information on Nonmaterial Losses to the Deposit Insurance Fund,
as Required by the Dodd-Frank Act ......................................................................27

Bureau of Consumer Financial Protection .............................................................29

Investigations .........................................................................................................32

Legal Services ........................................................................................................37

Communications and Coordination .......................................................................38

Appendixes

   Appendix 1a—Audit, Inspection, and Evaluation Reports Issued to the
               Board with Questioned Costs during the Reporting Period .....43

   Appendix 1b—Audit, Inspection, and Evaluation Reports Issued to the
               Bureau with Questioned Costs during the Reporting Period ....44


   Appendix 2a—Audit, Inspection, and Evaluation Reports Issued to the
               Board with Recommendations that Funds Be Put to Better
               Use during the Reporting Period ...............................................45

   Appendix 2b—Audit, Inspection, and Evaluation Reports Issued to the
               Bureau with Recommendations that Funds Be Put to Better
               Use during the Reporting Period................................................46

   Appendix 3a—OIG Reports to the Board with Recommendations that
               Were Open during the Reporting Period ...................................47


Semiannual Report to Congress                                      i                                       October 2011
   Appendix 3b—OIG Reports to the Bureau with Recommendations that
               Were Open during the Reporting Period ...................................49

   Appendix 4a—Audit, Inspection, and Evaluation Reports Issued to the
               Board during the Reporting Period ............................................50

   Appendix 4b—Audit, Inspection, and Evaluation Reports Issued to the
               Bureau during the Reporting Period ..........................................51

   Appendix 5—OIG Peer Reviews ......................................................................52

   Appendix 6—Cross-References to the IG Act..................................................53

Table of Acronyms and Abbreviations ..................................................................55




Semiannual Report to Congress                          ii                                October 2011
Highlights
Consistent with our responsibilities under the Inspector General Act of 1978, as
amended (IG Act), and the Dodd-Frank Wall Street Reform and Consumer
Protection Act (Dodd-Frank Act), we continued to promote the integrity,
economy, efficiency, and effectiveness of the programs and operations of the
Board of Governors of the Federal Reserve System (Board) and the Bureau of
Consumer Financial Protection (Bureau or CFPB). The following are highlights
of our work during this semiannual reporting period.

    Review of the Board’s Implementation of the Dodd-Frank Act. We issued
    our report on the Board’s progress in meeting its responsibilities under the
    Dodd-Frank Act. We found that the Board has implemented processes and
    taken significant steps to meet its Dodd-Frank Act responsibilities. The Board
    has drawn on expertise and resources from across the Federal Reserve System
    and has established an organizational structure with a senior staff position to
    coordinate its efforts. It has also developed and implemented the use of
    project reporting and tracking tools to facilitate management and oversight.
    The Board has completed studies and rulemakings, issued reports, and
    reorganized and created offices to meet its Dodd-Frank Act obligations, and
    Board project teams are continuing work on Dodd-Frank Act requirements,
    many of which require interagency involvement. Notwithstanding this
    progress, we identified a number of ongoing management challenges that the
    Board faces in implementing its substantial Dodd-Frank Act requirements
    efficiently and effectively.

    Failed Bank Reviews. Six Board-supervised banks failed during the
    reporting period, with total assets of about $3.8 billion and total losses to the
    Deposit Insurance Fund (DIF) estimated at $1.1 billion. The Dodd-Frank Act
    raised the materiality threshold for when the Office of Inspector General
    (OIG) is required to conduct a material loss review—currently losses to the
    DIF in excess of $200 million—but it also established a requirement to review
    each bank failure with a non-material loss to determine if unusual
    circumstances exist that warrant a more in-depth review. During this
    reporting period, we completed one material loss review and one in-depth
    review of a failed bank that exhibited unusual circumstances.

    Review of CFPB Implementation Planning Activities. Our office and the
    U.S. Department of the Treasury (Treasury) OIG jointly issued a report on the
    CFPB’s implementation planning activities related to standing up the agency.
    The review found that the CFPB identified and documented implementation
    activities critical to standing up the agency’s functions and necessary to
    address certain Dodd-Frank Act requirements. Furthermore, the CFPB
    developed and was implementing appropriate plans that supported ongoing
    operations as well as the July 21, 2011, transfer of employees and functions.




Semiannual Report to Congress             1                              October 2011
    Summary Analysis of Failed Bank Reviews. We analyzed failed state
    member bank reports that we issued between June 2009 and June 2011 to
    determine the common characteristics, circumstances, and emerging themes
    related to the cause of the bank failures and the Federal Reserve supervision
    of the failed institutions. Our analysis yielded a series of common
    observations, in addition to the economic decline, including (1) management
    pursuing robust growth objectives and making strategic choices that proved to
    be poor decisions; (2) rapid loan portfolio growth exceeding the bank’s risk
    management capabilities and/or internal controls; (3) asset concentrations tied
    to commercial real estate (CRE) or construction, land, and land development
    (CLD) loans, which increased the bank’s vulnerability to changes in the
    marketplace and compounded the risks inherent in individual loans; and (4)
    management failing to have sufficient capital to cushion mounting losses.

    As part of our review, we also conducted supplemental research and analysis
    to understand why certain institutions withstood the financial crisis better than
    others. We found that lower CRE and CLD concentration levels, strong
    capital positions, and minimal dependence on non-core funding were key
    differentiating characteristics. Our research also revealed a correlation
    between high CLD concentration levels and the likelihood of failure during
    the recent financial crisis.

    Investigative Accomplishments

    Savannah Real Estate Developer Sentenced for Fraud. A Savannah real
    estate developer was ordered to pay almost $2.4 million in restitution and was
    sentenced to 52 months in prison and 3 years supervised release in connection
    with a conspiracy to defraud the First National Bank, Savannah, Georgia, and
    other banks of over $2 million.

    Agricultural Business Owner Indicted on Fraud Charges. The owner of
    an Illinois agricultural business was indicted by a federal grand jury on one
    felony count of loan application fraud, two felony counts of bank fraud, and
    one felony count of wire fraud. The indictment alleges that the business
    owner provided false information to Peoples Bank and Trust, a Board-
    regulated institution, in order to secure a $10 million line of credit.




Semiannual Report to Congress             2                              October 2011
Introduction
Congress established the OIG as an independent oversight authority within the
Board, the government agency component of the broader Federal Reserve System.
In addition, the Dodd-Frank Act established the OIG as the independent oversight
authority for the Bureau. Within this framework, the OIG conducts audits,
investigations, and other reviews related to Board and Bureau programs and
operations. By law, the OIG is not authorized to perform program functions.

Consistent with the IG Act, our office, as the OIG for the Board and the Bureau,

    conducts and supervises independent and objective audits, investigations, and
    other reviews related to Board and Bureau programs and operations;

    promotes economy, efficiency, and effectiveness within the Board and the
    Bureau;

    helps prevent and detect fraud, waste, abuse, and mismanagement in Board
    and Bureau programs and operations;

    reviews existing and proposed legislation and regulations and makes
    recommendations regarding possible improvements to Board and Bureau
    programs and operations; and

    keeps the Board of Governors, the Director of the Bureau, and Congress fully
    and timely informed.

Congress has also mandated additional responsibilities that influence the OIG’s
priorities, to include the following:

Section 38(k) of the Federal Deposit Insurance Act (FDI Act) requires that the
OIG review failed financial institutions supervised by the Board that result in a
material loss to the DIF and produce a report within six months. The Dodd-Frank
Act amended section 38(k) of the FDI Act by raising the materiality threshold, but
also by requiring that the OIG report on the results of any nonmaterial losses to
the DIF that exhibit unusual circumstances that warrant an in-depth review.

In addition, section 211(f) of the Dodd-Frank Act requires that the OIG review the
Board’s supervision of any covered financial company that is placed into
receivership and produce a report that evaluates the effectiveness of the Board’s
supervision, identifies any acts or omissions by the Board that contributed to or
could have prevented the company’s receivership status, and recommends
appropriate administrative or legislative action.

Furthermore, section 989E of the Dodd-Frank Act established the Council of
Inspectors General on Financial Oversight (CIGFO), which is comprised of the
Inspectors General (IGs) of the Board, the Commodity Futures Trading
Commission, the Department of Housing and Urban Development, the Treasury,
the Federal Deposit Insurance Corporation (FDIC), the Federal Housing Finance

Semiannual Report to Congress           3                             October 2011
Agency (FHFA), the National Credit Union Administration (NCUA), and the
Securities and Exchange Commission (SEC), and the Special IG of the Troubled
Asset Relief Program (TARP). The CIGFO is required to meet at least quarterly
to share information and discuss the ongoing work of each IG, with a focus on
concerns that may apply to the broader financial sector and ways to improve
financial oversight. Additionally, the CIGFO is required to issue a report
annually that highlights the IGs’ concerns and recommendations, as well as issues
that may apply to the broader financial sector.

With respect to information technology (IT), the Federal Information Security
Management Act of 2002 (FISMA) established a legislative mandate for ensuring
the effectiveness of information security controls over resources that support
federal operations and assets. Consistent with FISMA’s requirements, we
perform an annual independent evaluation of the Board’s and the Bureau’s
information security program and practices, including the effectiveness of security
controls and techniques for selected information systems.

The USA PATRIOT Act of 2001, Public Law No. 107-56, grants the Board
certain federal law enforcement authorities. Our office serves as the external
oversight function for the Board’s law enforcement program.

Section 11B of the Federal Reserve Act mandates annual independent audits of
the financial statements of each Federal Reserve Bank and of the Board. We
oversee the annual financial statement audits of the Board, as well as the Federal
Financial Institutions Examination Council (FFIEC). The FFIEC is a formal
interagency body empowered to prescribe uniform principles, standards, and
report forms for the federal examination of financial institutions by the Board, the
FDIC, the NCUA, the Office of the Comptroller of the Currency (OCC), and the
CFPB and to make recommendations to promote uniformity in the supervision of
financial institutions. Under the Dodd-Frank Act, the Government Accountability
Office performs the financial statement audits of the Bureau.




Semiannual Report to Congress                4                          October 2011
Overview of the OIG’s Strategic Plan 2011 – 2015

The following chart represents the structure of the OIG’s Strategic Plan, which we
recently updated to incorporate, among other things, new requirements under the
Dodd-Frank Act, including our responsibilities as the OIG for the Bureau.




Semiannual Report to Congress               5                          October 2011
Organization Chart
              OFFICE OF INSPECTOR GENERAL
                                           (July 2011)




                                           OIG Staffing

                  Auditors (including Information Technology)   53
                  Investigators                                 15
                  Legal                                          6
                  Administrative and Hotline                     6
                  Information Systems Analysts                   5
                      Total Authorized Positions                85




Semiannual Report to Congress                          6             October 2011
Audits and Attestations
The Audits and Attestations program assesses aspects of the economy, efficiency,
and effectiveness of Board and Bureau programs and operations. For example,
Audits and Attestations conducts audits of (1) the Board’s financial statements
and financial performance reports; (2) the efficiency and effectiveness of
processes and internal controls over agency programs and operations; (3) the
adequacy of controls and security measures governing agency financial and
management information systems and the safeguarding of assets and sensitive
information; and (4) compliance with applicable laws and regulations related to
agency financial, administrative, and program operations. As mandated by the IG
Act, OIG audits and attestations are performed in accordance with the
Government Auditing Standards established by the Comptroller General. The
information below summarizes OIG work completed during the reporting period
and ongoing work that will continue into the next semiannual reporting period.


COMPLETED AUDIT WORK AT THE BOARD

Audit of the Board’s Implementation of the Dodd-Frank Wall Street Reform
and Consumer Protection Act

During this period, we completed an audit of the Board’s implementation of the
Dodd-Frank Act. The Dodd-Frank Act was enacted in response to the financial
crisis and charged the Board with significant responsibilities, including the
development of complex rulemakings, many in conjunction with other federal
financial regulatory agencies. We conducted this audit to assess (1) the efficiency
and effectiveness of the Board’s processes for identifying, tracking, and overall
managing its responsibilities under the act and (2) the Board’s progress in
implementing key requirements of the act.

Overall, we found that the Board has implemented processes and taken significant
steps to meet its Dodd-Frank Act responsibilities. The Board has drawn on
expertise and resources from across the Federal Reserve System and has over 300
staff members working on its implementation projects. The Board has established
an organizational structure with a senior staff position to coordinate its efforts and
developed and implemented the use of project reporting and tracking tools to
facilitate management and oversight. Building on these efforts, the Board has
completed studies and rulemakings, issued reports, and reorganized and created
offices to meet its Dodd-Frank Act obligations, and Board project teams are
continuing work on Dodd-Frank Act requirements, many of which require
interagency involvement.

Notwithstanding this progress, we identified that the Board faces a number of
ongoing management challenges in implementing its substantial Dodd-Frank Act
requirements efficiently and effectively, including (1) managing the overall
workload volume and complexity; (2) collaborating and coordinating actions with
other financial regulatory agencies that share responsibilities for a number of

Semiannual Report to Congress                 7                           October 2011
rules, studies, and other Dodd-Frank Act provisions; (3) obtaining and analyzing
voluminous public comments on rulemakings; (4) meeting statutory deadlines;
and (5) establishing an organizational structure and recruiting and integrating new
staff. In addition to these challenges, we identified opportunities to improve the
use of the Board’s project reporting and tracking tool, and we made a
recommendation designed to enhance project monitoring and reporting.

We noted that some of these challenges have had adverse impacts on project
completion early in the Board’s implementation process. Of the 13 projects
having statutory deadlines that fell within the period of our fieldwork, 6 missed
their deadlines. Two of these 6 projects stem from a single proposed rulemaking
that generated over 11,000 comments. The other four projects were delayed due
to interagency operational challenges, including one project that the Board
approved about one week prior to its deadline. While these projects represent a
small percentage of the Board’s overall Dodd-Frank Act implementation
responsibilities through 2013, they are reflective of the challenges that the Board
faces in its ongoing implementation efforts. As the bulk of the Board’s Dodd-
Frank Act work lies ahead, leveraging lessons learned from challenges
experienced during its early implementation activities can help guide the Board in
efficiently and effectively carrying out Dodd-Frank Act requirements going
forward.

In their comments on our draft report, the Board’s General Counsel and the
Special Advisor to the Board for Regulatory Reform Implementation summarized
the management structure and processes employed to meet the ongoing challenges
of implementing the Dodd-Frank Act. In addition, they indicated that the report’s
recommendation would be addressed by reviewing existing policies related to the
project reporting and tracking tool and by clarifying guidance. Prior to issuing
our final report, we were notified that this guidance had been clarified and
approved and that appropriate staff had been instructed to incorporate it in their
activities.


Security Control Review of the Visitor Registration System

During this reporting period, we also completed a security control review of the
Board’s Visitor Registration System (VRS). VRS is listed as a major application
on the Board’s FISMA inventory. VRS allows Board employees to register
Board visitors; provides administrative users the ability to manage registered
visitors, run reports, and manage access roles; and provides law enforcement
officers who use it the ability to sign visitors in and out, print badges, and manage
visitors. Our objectives were to (1) evaluate the effectiveness of selected security
controls and techniques for protecting VRS from unauthorized access,
modification, or destruction and (2) ensure compliance with the Board’s
information security program.



Semiannual Report to Congress                 8                          October 2011
Overall, our review of VRS found that, in general, controls are adequately
designed and implemented. For those control families where control objectives
were not met, we identified the aspect of the control that was deficient or where
improvements could be made, and we highlighted recommended action. In
comments on a draft of our report, the Board’s Chief Operating Officer and the
Director of the Board’s Management Division generally agreed with our
recommendations and outlined corrective actions.


FOLLOW-UP ACTIVITIES AT THE BOARD

Follow-up of the Audit of Blackberry and Cell Phone Internal Controls

Our 2009 report on the Audit of Blackberry and Cell Phone Internal Controls
contained three recommendations designed to improve existing controls used to
manage and account for Blackberrys and cell phones. Specifically, we
recommended that the Director of IT (1) ensure that all entries to and transactions
made in the Secure Inventory Closet (SIC) are recorded in the SIC transaction log,
perform a monthly reconciliation of the ―Badge Access‖ log, and analyze how the
SIC security camera can be positioned to closely monitor actions by IT personnel
regarding devices stored in the SIC; (2) ensure that individuals with responsibility
for storing and removing devices from the SIC do not have full access to the
equipment database; and (3) determine what additional procedures are needed to
ensure the prompt return of devices that are no longer in use, such as when
employees separate from the Board, and coordinate efforts with the Management
Division to receive notification of upcoming employee separations. Based on our
follow-up work, we concluded that the actions taken by the Board were sufficient
to warrant closing the second and third recommendations. The first
recommendation remains open because the IT division still plans to relocate the
SIC to a larger area that will allow for a surveillance camera to capture device-
related activities.


ONGOING AUDIT WORK AT THE BOARD

Audit of the Board’s Financial Statements for the Year Ending December 31,
2011, and Audit of the Federal Financial Institutions Examination Council’s
Financial Statements for the Year Ending December 31, 2011

We contract for an independent public accounting firm to annually audit the
financial statements of the Board and the FFIEC. (The Board performs the
accounting function for the FFIEC.) The accounting firm, currently Deloitte &
Touche LLP, performs the audits to obtain reasonable assurance that the financial
statements are free of material misstatement. The OIG oversees the activities of
the contractor to ensure compliance with generally accepted government auditing



Semiannual Report to Congress                9                          October 2011
standards and Public Company Accounting Oversight Board auditing standards
related to internal controls over financial reporting.

The audits include examining, on a test basis, evidence supporting the amounts
and disclosures in the financial statements. The audits also include an assessment
of the accounting principles used and significant estimates made by management,
as well as an evaluation of the overall financial statement presentation. To
determine the auditing procedures necessary to express an opinion on the
financial statements, the auditors will review the Board’s and the FFIEC’s internal
controls over financial reporting. The auditors will also express an opinion on the
effectiveness of the Board’s internal controls over financial reporting based on the
Government Auditing Standards and the Public Company Accounting Oversight
Board standards. As part of obtaining reasonable assurance that the financial
statements are free of material misstatement, the auditors also will perform tests
of the Board’s and the FFIEC’s compliance with certain provisions of laws and
regulations, since noncompliance with these provisions could have a direct and
material effect on the determination of the financial statement amounts. The audit
reports will be issued in the next reporting period.


Audit of the Board’s Information Security Program

We began our annual audit of the Board’s information security program and
practices. This audit is being performed pursuant to FISMA, which requires that
each agency IG conduct an annual independent evaluation of the agency’s
information security program and practices. Our specific audit objectives, based
on the act’s requirements, are to evaluate the effectiveness of security controls
and techniques for selected information systems and to evaluate compliance by
the Board with FISMA and related information security policies, procedures,
standards, and guidelines. In accordance with revised reporting requirements, our
FISMA review includes an analysis of the Board’s security-related processes in
the following areas: risk management, continuous monitoring, plans of action and
milestones, account and identity management, remote access, security
configuration management, security training, contractor oversight, contingency
planning, incident response and reporting, and capital planning. We expect to
complete this project and issue our final report in the next reporting period.


Audit of the Board’s Government Travel Card Program

During the reporting period, we began an audit of the Board’s government travel
card program. The Board participates in the General Services Administration’s
SmartPay program to obtain and issue government travel cards to its employees.
Our objectives are to assess whether controls (1) are designed and operate
effectively to provide reasonable assurance that cards are properly issued,
administered, and controlled; (2) act to detect and prevent unauthorized or


Semiannual Report to Congress               10                          October 2011
fraudulent transactions in a timely manner; and (3) are adequate to ensure proper
use of the cards in accordance with the Board’s policy and procedures. During
this period, we completed our fieldwork. We anticipate discussing our results
with management and issuing our final report in the next reporting period.


Security Control Review of the Board’s Public Website

We issued for Board comment a draft report on our security control review of the
Board’s public website (Pubweb). Pubweb is listed as a major application on the
Board’s FISMA inventory for the Office of Board Members. Pubweb provides
the public with information about the mission and work of the Board. Our audit
objectives were to evaluate the effectiveness of selected security controls and
techniques for protecting Pubweb from unauthorized access, modification, or
destruction; and to ensure compliance with the Board’s information security
program. We expect to issue our final report in the next reporting period.


Security Control Review of the National Remote Access Services

We issued for Board comment a draft report on our security control review of the
Federal Reserve System’s National Remote Access Services (NRAS). The Board
and the 12 Federal Reserve Banks use NRAS for remotely accessing Board and
Federal Reserve Bank information systems. Our objectives were to evaluate the
effectiveness of selected security controls and techniques to ensure that the Board
maintains a remote access program that is generally compliant with FISMA
requirements. We expect to issue our final report in the next reporting period.


Security Control Review of FISMA Assets Maintained by the Federal Reserve
Bank of Richmond

We completed the fieldwork and began drafting our report on a security control
review of two Lotus Notes applications listed on the Board’s FISMA inventory
and maintained by the Federal Reserve Bank of Richmond (FRB Richmond). The
two database applications are used by FRB Richmond to support bank
examinations. Our objectives are to (1) evaluate the effectiveness of selected
security controls and techniques for protecting the two Lotus Notes applications
from unauthorized access, modification, or destruction and (2) ensure compliance
with the Board’s information security program. We plan to complete this review
and issue the final report in the next reporting period.




Semiannual Report to Congress               11                          October 2011
Audit of the Management Division’s Internal Control Processes

We began an initial data gathering and scoping effort on the Management
Division’s internal control processes. The Management Division is responsible
for many important functions that support Board operations, including human
resources, facilities management, finance, and law enforcement protection.
Establishing and maintaining effective internal controls is key to accomplishing
agency missions, achieving program results, and complying with applicable laws
and regulations. Once we have completed our scoping effort, we will define our
specific objectives, scope, and methodology and will issue a formal notification
announcing the audit to the Board.


Audit of the Board’s Continuity/Disaster Recovery Program for Its Information
Systems

We began an audit of the Board’s continuity/disaster recovery program for its
information systems. Our overall objective is to determine if the Board is
maintaining a program that is generally consistent with related National Institute
of Standards and Technology (NIST) and Office of Management and Budget
(OMB) FISMA guidance. To accomplish this objective, we plan to develop a
tailored control assessment program based on the Contingency Planning family of
information security controls in NIST Special Publication 800-53, Recommended
Security Controls for Federal Information Systems. We plan to focus on the
infrastructure, but will also review contingency plans and test results for a sample
of information systems. We expect to complete our review during the next
reporting period.


Security Control Review of the Federal Reserve System’s Office of Employee
Benefits’ Information Systems

We began a security control review of the Federal Reserve System’s Office of
Employee Benefits’ (OEB’s) information systems. Our overall objective is to
determine if the OEB and its contractors are maintaining a program that is
generally consistent with related NIST and OMB FISMA guidance. Our specific
control review objective is to evaluate the adequacy of control techniques for
protecting Board data in the information systems from unauthorized access,
modification, or destruction. We will use the Board’s Information Security
Program and related NIST FISMA guidance as criteria.




Semiannual Report to Congress                12                         October 2011
Audit of the Board’s Progress in Developing Enhanced Prudential Standards
and Monitoring of Potential Systemic Risks

We completed the fieldwork and began report drafting on an audit of the Board’s
Division of Banking Supervision and Regulation’s (BS&R’s) implementation of
applicable provisions of the Dodd-Frank Act. The act gave the Board important
new authorities to support financial stability, including the responsibility for
developing enhanced prudential standards for supervising large bank holding
companies with total consolidated assets of $50 billion or more and systemically
important non-bank financial companies identified by the Financial Stability
Oversight Council (FSOC).

The objectives of this audit are to assess BS&R’s approaches to (1) developing
enhanced prudential standards for large bank holding companies, including
standards that would apply to any non-bank financial company that the FSOC
identifies as systemically important, and (2) monitoring potential systemic risks,
including emerging mortgage foreclosure-related issues. We plan to complete
this review in the next reporting period.


Multi-disciplinary Work at the Board
Inquiry into Allegations of Inappropriate Political Interference

During this reporting period, we completed fieldwork and began drafting the
report on our inquiry into allegations of inappropriate political interference with
Federal Reserve System officials, resulting in hidden transfers of resources to
facilitate crimes during the Watergate scandal in the 1970s and to Iraq for weapon
purchases during the 1980s. These allegations were raised by a member of
Congress during the February 2010 Humphrey-Hawkins hearing before the House
Committee on Financial Services. We initiated our inquiry in response to a
request to the Board for an investigation of the allegations from the then
Chairman of the House Committee on Financial Services, which the Board
referred to our office. We expect to complete this project and issue the final
report in the next reporting period.




Semiannual Report to Congress               13                          October 2011
Inspections and Evaluations
The Inspections and Evaluations program encompasses OIG inspections, program
evaluations, enterprise risk management activities, process design and life-cycle
evaluations, and legislatively-mandated reviews of failed financial institutions
that the Board supervises. Inspections are generally narrowly focused on a
particular issue or topic and provide time-critical analysis that cuts across
functions and organizations. In contrast, evaluations are generally focused on a
specific program or function and make extensive use of statistical and quantitative
analytical techniques. Evaluations can also encompass other preventive activities,
such as reviews of system development life-cycle projects and participation on
task forces and workgroups. OIG inspections and evaluations are performed
according to the Quality Standards for Inspection and Evaluation issued by the
Council of the Inspectors General on Integrity and Efficiency (CIGIE).


COMPLETED INSPECTION AND EVALUATION WORK AT THE
BOARD

Failed Bank Reviews

                            Section 38(k) of the FDI Act requires that the IG of
                            the appropriate federal banking agency complete a
                            review of the agency’s supervision of a failed
                            institution and issue a report within six months of
                            notification from the FDIC IG when the projected
                            loss to the DIF is material. Under section 38(k) of
                            the FDI Act, as amended, a material loss to the DIF is
                            defined as an estimated loss in excess of $200
million. Pursuant to the Dodd-Frank Act, this threshold applies if the loss occurs
between January 1, 2010, and December 31, 2011.

The material loss review provisions of section 38(k) require that the IG

        review the institution’s supervision, including the agency’s
        implementation of prompt corrective action (PCA);

        ascertain why the institution’s problems resulted in a material loss to the
        DIF; and

        make recommendations for preventing any such loss in the future.

The Dodd-Frank Act also establishes specific requirements for bank failures that
result in losses below the materiality threshold. In these situations, the IG must
review the failure to determine, among other things, whether the loss exhibits
unusual circumstances that warrant an in-depth review. In such cases, the IG
must prepare a report in a manner consistent with the requirements of a material
loss review. Pursuant to the Dodd-Frank Act, the IG must semiannually report


Semiannual Report to Congress                14                          October 2011
the dates when each such review and report will be completed. If it is determined
that a loss did not involve unusual circumstances, the IG is required to provide an
explanation of its determination in the above mentioned semiannual report. The
OIG has included its report on nonmaterial loss bank failures in this Semiannual
Report to Congress (see pages 27 and 28).

As shown in the table below, during this reporting period we issued two reports
on failed state member banks: one where the loss to the DIF exceeded the
materiality threshold, and the other where the loss did not meet the materiality
threshold, but presented unusual circumstances. These two banks had total assets
of approximately $2.7 billion and total losses estimated at $284.8 million, or
approximately 10.6 percent of total assets.

Failed Bank Reviews Completed during the Reporting Period
                                                                                  DIF
                                                Federal                         Projected                       FDIC IG
                                                Reserve         Asset size        Loss           Closure       Notification
 State Member Bank           Location            Bank         (in millions)   (in millions)       Date           Datea

 Pierce Commercial         Tacoma, WA             San           $ 217.8          $ 24.8        11/05/2010          N/Ab
   Bank                                        Francisco

 First Community             Taos, NM         Kansas City       $2,460.0         $260.0        01/28/2011       02/24/2011
   Bank
 a. Date that our office received notification from the FDIC IG that the projected loss to the DIF would be material.
 b. Pierce Commercial Bank did not meet the materiality threshold; however, we determined that the bank’s failure
    presented unusual circumstances that warranted an in-depth review.



Review of the Failure of Pierce Commercial Bank

Pierce Commercial Bank (Pierce) began operations on December 8, 1997, as a de
novo state member bank headquartered in Tacoma, Washington. Pierce was
supervised by the Federal Reserve Bank of San Francisco (FRB San Francisco),
under delegated authority from the Federal Reserve Board, and by the
Washington Department of Financial Institutions (State). The State closed Pierce
on November 5, 2010, and named the FDIC as receiver. According to the FDIC,
the bank’s total assets at closing were $217.8 million and its failure resulted in an
estimated $24.8 million loss to the DIF. While the loss to the DIF did not meet
the standards for materiality, we conducted an in-depth review after determining
that Pierce’s failure presented unusual circumstances because of fraud allegations
associated with the bank’s mortgage lending activities.

Pierce failed because its Board of Directors and management did not adequately
control the risks associated with the bank’s residential mortgage lending
activities. Specifically, the Board of Directors and senior management allowed
the mortgage banking division—PC Bank—to operate independently without
appropriate oversight and failed to conduct adequate strategic planning or
implement robust internal controls. PC Bank pursued an originate-to-distribute

Semiannual Report to Congress                                    15                                        October 2011
business model that involved originating residential mortgages to be sold in the
secondary market. Although this business model appeared to transfer the credit
risk associated with mortgage loans to investors, Pierce remained exposed to the
risk that investors could demand that the bank repurchase loans or reimburse
investors for losses, subject to certain conditions. Examiners ultimately
uncovered possibly fraudulent activity at PC Bank related to employees
misrepresenting borrower financial information and steering customers into loans
for which they were not qualified. These practices led to the bank incurring
losses resulting from significant investor repurchase and indemnification
demands.

In addition, inadequate credit risk management and weak underwriting made the
bank’s commercial loan portfolio susceptible to declining economic conditions.
Although Pierce received $6.8 million in TARP funds under the Treasury’s
Capital Purchase Program (CPP) in January 2009, mounting losses resulting from
investor repurchase and indemnification demands and commercial loan portfolio
deterioration due to declining economic conditions eliminated the bank’s
earnings, depleted capital (including the TARP funds), and eventually led to the
bank’s failure.

With respect to supervision, FRB San Francisco complied with the safety and
soundness examination frequency guidelines and conducted regular off-site
monitoring for the time frame we reviewed, 2003 to 2010. Our analysis of FRB
San Francisco’s supervision indicated that examiners missed several opportunities
to conduct the detailed testing necessary to more accurately assess the bank’s risk
profile. While it is not possible to determine whether detailed testing would have
resulted in earlier detection of the fraud, such testing likely would have identified
the control weaknesses that created an opportunity for fraudulent activity.

We also believe that FRB San Francisco did not sufficiently assess the risk
associated with the bank’s recourse obligations or closely supervise its off-
balance sheet reserve to mitigate the risk associated with the bank’s secondary
market credit activities in accordance with Supervision and Regulation Letter
97-21, Risk Management and Capital Adequacy of Exposures Arising from
Secondary Market Credit Activities. In our opinion, FRB San Francisco was late
to identify these risks, and the expenses associated with addressing investor
repurchase and indemnification demands ultimately contributed to the bank’s
failure.

In late November 2008, Pierce’s holding company applied for TARP funds under
the CPP, and FRB San Francisco evaluated the application. We believe that FRB
San Francisco complied with the process outlined in the Treasury guidance for
banks that had not been examined during the previous six months and the limited
decision-making criteria available at the time. However, as discussed below, the
evaluation might have had different results if examiners had appropriately



Semiannual Report to Congress                16                          October 2011
identified Pierce’s risk profile earlier and taken stronger supervisory action
sooner.

In our opinion, FRB San Francisco had multiple opportunities to conduct detailed
testing consistent with expectations in the Commercial Bank Examination Manual
(CBEM). If FRB San Francisco had acted on those opportunities sooner, it would
have likely resulted in (1) a more accurate assessment of the bank’s risk profile
and (2) earlier CAMELS composite and component rating downgrades, such as
the downgrades issued during the July 2009 safety and soundness examination
once examiners realized the extent of the bank’s weaknesses. Because the time
span during which these opportunities presented themselves coincided with the
bank’s growth period, earlier detection might have mitigated the loss to the DIF
and resulted in the CAMELS composite rating downgrades necessary to preclude
the bank from receiving TARP CPP funds. Nevertheless, it is not possible to
determine whether alternative supervisory action might have prevented the
failure.

Although the failure of an individual institution does not necessarily provide
sufficient evidence to draw broad-based conclusions, we believe that Pierce’s
failure offers lessons learned that can be applied to supervising banks with similar
characteristics and circumstances. Pierce’s failure demonstrates the importance of
(1) examiners appropriately identifying key risks early; (2) examiners timely
conducting detailed testing of new business activities consistent with CBEM
expectations; (3) active Board of Directors and management oversight of the
bank’s business activities; and (4) banks incorporating secondary market credit
activities into overall risk management systems, including setting adequate
minimum internal standards for allowances or liabilities for losses, capital, and
contingency funding. This failure also demonstrates that recurring weaknesses
with strategic planning, compliance with laws and regulations, and internal
controls can indicate broader corporate governance and risk management
deficiencies.

The Director of BS&R concurred with our conclusions, lessons learned, and
recommendations. The Director said that he planned to implement our
recommendations concerning the need to reinforce the corporate governance
principles outlined in the CBEM and cross-referencing guidance addressing
secondary market asset sales.


Material Loss Review of First Community Bank

First Community Bank (First Community) was established in Taos, New Mexico,
in 1922 and became a state member bank in 1938. First Community was
supervised by the Federal Reserve Bank of Kansas City (FRB Kansas City), under
delegated authority from the Federal Reserve Board, and by the State of New
Mexico Financial Institutions Division (State). On January 28, 2011, the State


Semiannual Report to Congress                17                          October 2011
closed First Community and appointed the FDIC as receiver. On February 24,
2011, the FDIC IG notified us that First Community’s failure would result in an
estimated loss to the DIF of $260 million, or 10.6 percent of the bank’s $2.46
billion in total assets at closing.

First Community failed because its Board of Directors and management did not
adequately control the risks associated with the bank’s aggressive growth
strategy, which resulted in a CRE loan concentration, particularly in construction,
land, and land development CLD loans. The bank expanded into new markets by
merging with multiple banks between 2001 and 2007. This strategy resulted in
the bank developing significant concentrations in CRE and CLD loans that made
First Community particularly vulnerable to real estate market declines. The
Board of Directors’ and management’s failure to adequately manage the bank’s
CRE and CLD credit risk, coupled with weakening real estate markets, led to
rapid asset quality deterioration. Mounting losses depleted the bank’s earnings
and eroded capital, which prompted the State to close First Community and
appoint the FDIC as receiver.

With respect to supervision, FRB Kansas City complied with the examination
frequency guidelines for the timeframe we reviewed, 2005 through 2011, and
conducted regular off-site monitoring. Our analysis of FRB Kansas City’s
supervision of First Community revealed that examiners identified the bank’s
fundamental weaknesses, including having high concentrations in CRE and CLD
loans and having a dominant Chief Executive Officer (CEO) and an ―insider‖
Board of Directors (that is, it was comprised of senior bank officials). However,
we believe that examiners should have held bank management accountable for
failing to develop and implement appropriate CRE risk management practices in a
timely manner and that First Community’s high concentration in CRE and CLD
loans warranted stronger criticism during an August 2007 examination,
potentially including component rating downgrades. Also, in our opinion, the
bank’s insider board and dominant CEO operating model also warranted more
supervisory criticism prior to an August 2009 examination. While we believe that
FRB Kansas City had opportunities for earlier and more forceful supervisory
action, it is not possible for us to predict the effectiveness or impact of any
corrective measures that might have been taken by the bank. Therefore, we
cannot evaluate the degree to which an earlier or alternative supervisory response
would have affected First Community’s financial deterioration or the ultimate cost
to the DIF.

We believe that First Community’s failure highlights several lessons learned that
can be applied when supervising banks with similar characteristics. In our
opinion, banks with a dominant CEO, an aggressive growth strategy, and high
CRE and CLD loan concentrations require heightened supervisory attention. In
particular, First Community’s failure illustrates (1) the potential for a dominant
CEO coupled with an insider board to be slow to react to recent regulatory
guidance and dynamic market conditions; (2) the risks associated with the use of


Semiannual Report to Congress               18                          October 2011
mergers to implement an aggressive growth strategy to expand into new markets;
and (3) the importance of timely implementing a robust credit risk assessment
program designed to identify and control CRE and CLD concentrations.

The Director of BS&R concurred with our observations and lessons learned.


Summary Analysis of Failed Bank Reviews

This report analyzed failed state member bank reports that the OIG issued
between June 29, 2009, and June 30, 2011, to determine the common
characteristics, circumstances, and emerging themes related to (1) the cause of the
bank failures and (2) Federal Reserve supervision of the failed institutions. Our
analysis yielded a series of common observations. We also conducted
supplemental research and analysis to understand why certain institutions
withstood the financial crisis better than others.

With respect to the cause of the state member bank failures, the majority of the
reports cited common themes. In addition to the economic decline that triggered
asset quality deterioration and significant losses at each of the failed banks, the
common themes included (1) management pursuing robust growth objectives and
making strategic choices that proved to be poor decisions; (2) rapid loan portfolio
growth exceeding the bank’s risk management capabilities and/or internal
controls; (3) asset concentrations tied to CRE or CLD loans, which increased the
bank’s vulnerability to changes in the marketplace and compounded the risks
inherent in individual loans; and (4) management failing to have sufficient capital
to cushion mounting losses. Additionally, the reports revealed certain practices
that contributed to specific failures, such as risky funding strategies and incentive
compensation programs that inappropriately encouraged risk taking.

With respect to the supervision of the failed state member banks, many of the
reports noted that examiners identified key safety and soundness risks, but did not
take sufficient supervisory action in a timely manner to compel the Boards of
Directors and management to mitigate those risks. In many instances, examiners
eventually concluded that a supervisory action was necessary, but that conclusion
came too late to reverse the bank’s deteriorating condition.

In our supplemental research and analysis comparing failed banks to those that
withstood the financial crisis, we found that lower CRE and CLD concentration
levels, strong capital positions, and minimal dependence on non-core funding
were key differentiating characteristics. Our research also revealed a correlation
between high CLD concentration levels and the likelihood of failure during the
recent financial crisis.




Semiannual Report to Congress                19                           October 2011
Based on our mandate to assess the bank failures to determine how losses to the
DIF might be avoided in the future and our assessment of the emerging themes
from the failures we reviewed, we recommended that the Director of BS&R

        supplement current examiner training programs with case studies from the
        recent failures;

        develop standard examination procedures to evaluate compensation
        arrangements; and

        provide supplementary guidance on CRE concentrations.

We also suggested that the Director of BS&R

        continue to work with the other federal banking agencies to identify
        opportunities to enhance PCA;

        define the appropriate supervisory response for highly concentrated state
        member banks that continue to pursue aggressive growth strategies; and

        encourage and take appropriate steps to implement a supervisory approach
        that requires strong and consistent supervisory action during stable
        economic periods.


Response to a Congressional Request Regarding the Economic Analysis
Associated with Specified Rulemakings

During this reporting period, we received a letter from the minority members of
the Senate Committee on Banking, Housing, and Urban Affairs requesting that we
review the economic analysis that the Board performed supporting five Dodd-
Frank Act rulemakings. To respond to the members’ request, we (1) interviewed
more than 30 Board employees who worked on the respective rulemaking teams;
(2) reviewed supporting documentation from each of the 5 rulemaking teams; and
(3) developed and circulated a questionnaire to determine the qualifications of
Board staff who performed economic analysis.

We determined that a number of key statutes provide the Board with rulemaking
authority, but generally do not require economic analysis as part of the Board’s
rulemaking activities. The Dodd-Frank Act did not mandate that an economic or
cost-benefit analysis support the five rulemakings, but the Dodd-Frank Act
required each of the respective rulemakings to address certain substantive
considerations. In addition, the Paperwork Reduction Act and the Regulatory
Flexibility Act required the Board to conduct narrowly tailored evaluations of
each rulemaking’s paperwork burden and effect on small entities, respectively.



Semiannual Report to Congress               20                         October 2011
We found that the Board routinely reviews economic data to monitor changing
economic conditions and conducts the quantitative economic analysis necessary
to satisfy statutory requirements and, on a discretionary basis, to support the
rulemaking. Further, we determined that the Board generally sought public input
for its rulemaking activities and typically reevaluates the effectiveness of its
existing regulations every five years. We concluded that the Board generally
followed a similar approach for the five rulemakings we reviewed and that the
rulemakings we reviewed complied with the Paperwork Reduction Act, the
Regulatory Flexibility Act, and applicable Dodd-Frank Act requirements
described in our report.

Our analysis yielded the following findings that resulted in recommendations.
First, the Board’s policy statement on rulemaking procedures had not been
recently updated and, although rulemaking staff were cognizant of the Board’s
rulemaking practices, none of the staff members cited the policy statement.
Second, our review of the Federal Register indicated that the notices associated
with the respective rulemakings typically provided insight into the general
approaches and data used in the economic analysis; however, in some cases, the
Board’s internal documentation did not clearly outline the work steps underlying
the economic analysis. We recommended that the Board (1) update the
Rulemaking Procedures Policy Statement and broadly disseminate it to all
employees involved in rulemaking activities; and (2) consider establishing
documentation standards for rulemaking economic analysis to help ensure
reproducibility on an internal basis. In a response to our draft report, the Board
stated that the two recommendations would be adopted.


Status of the Transfer of Office of Thrift Supervision Functions

Title III of the Dodd-Frank Act established provisions for the transfer of authority
from the Office of Thrift Supervision (OTS) to the OCC, the FDIC, and the Board
within one year after the July 21, 2010, date of enactment. Under Title III, the
Board was to receive the functions and rulemaking authority for consolidated
supervision of savings and loan holding companies and their non-depository
subsidiaries.

The Dodd-Frank Act required that, within 180 days after its enactment, the OTS,
the OCC, the FDIC, and the Board jointly submit a plan (Joint Implementation
Plan) to Congress and the IGs of the Treasury, the FDIC, and the Board that
detailed the steps each agency would take to implement the Title III provisions.
The Joint Implementation Plan was submitted to Congress and the IGs on January
25, 2011. The Dodd-Frank Act required that the IGs conduct a review to
determine whether the implementation plan conformed to the Title III provisions
of the Joint Implementation Plan.




Semiannual Report to Congress                21                         October 2011
On March 28, 2011, the IGs jointly issued a report concluding that the actions
described in the Joint Implementation Plan generally conformed to the provisions
of Title III. In April 2011, in response to the IGs’ report, the Joint
Implementation Plan was amended to expand on the protections for transferred
OTS employees.

Title III requires the IGs to report on the status of implementing the Joint
Implementation Plan every six months following the issuance of the initial IG
report. Accordingly, the IGs issued a status report on September 28, 2011, that
concluded that the Board, the FDIC, the OCC, and the OTS have substantially
implemented the actions in the Joint Implementation Plan that were necessary to
transfer OTS functions, employees, funds, and property to the Board, the FDIC,
and the OCC, as appropriate. However, certain elements of the plan are ongoing
or were not yet required to be completed as provided in Title III. The Board
stated in its written comments that it agreed with the conclusion that the Board’s
part of the plan complied with Title III.


Evaluation of Prompt Regulatory Action Implementation

The OIGs of the Board, the FDIC, and the Treasury conducted a review of the
prompt regulatory action (PRA) provisions of the FDI Act. The PRA provisions
of the FDI Act (section 38, PCA, and section 39, standards for safety and
soundness) require federal financial regulators to institute a system of regulatory
actions when an institution fails to meet minimum capital levels or certain safety
and soundness standards. These provisions were intended to increase the
likelihood that regulators would respond promptly and forcefully to minimize
losses to the DIF when federally insured banks fail. Our work focused on the
following objectives:

        Determining the purpose of and circumstances that led to the PRA
        provisions (FDI Act sections 38 and 39) and lessons learned from the
        savings and loan crisis in the 1980s;

        Evaluating to what extent PCA and the safety and soundness standards
        were a factor in bank failures and problem institutions during the current
        crisis;

        Assessing whether these provisions prompted federal regulators to act
        more quickly and more forcefully to limit losses to the DIF, in light of
        findings and lessons learned from the savings and loan crisis and
        regulators’ use of PRA provisions in the current crisis; and

        Determining whether there are other non-capital measures that provide a
        leading indication of risks to the DIF that should be considered as part of
        the PRA provisions.


Semiannual Report to Congress                22                          October 2011
We found that PRA provisions were appropriately implemented and helped
strengthen oversight to a degree. More specifically, we found that

        Regulators implemented PCA appropriately;

        Inherent limitations associated with PCA’s capital-based framework and
        the sudden and severe economic decline impacted PCA’s effectiveness;

        Regulators identified deficiencies prior to declines in PCA capital
        categories;

        Regulators used other enforcement actions to address safety and
        soundness concerns before undercapitalization, but after financial decline
        occurred;

        Regulators made limited use of section 39 to address asset quality and
        management deficiencies identified; and

        Critically undercapitalized institutions were closed promptly, but overall
        losses were significant.

To improve the effectiveness of the PRA framework and to meet the section 38
and 39 goals of identifying problems early and minimizing losses to the DIF, we
recommended that the FDIC, the Board, and the OCC agency heads review the
matters for consideration presented in this report and work through the FSOC to
determine whether the PRA legislation or implementing regulations should be
modified. The matters for consideration were (1) develop specific criteria and
corresponding enforcement actions for non-capital factors, (2) increase the
minimum PCA capital levels, and (3) continue to refine the deposit insurance
system for banks with assets under $10 billion to assess greater premiums
commensurate with risk-taking.

Each of the agency responses to our draft report and the identified planned actions
addressed the intent of the recommendation. The Board’s written response
concurred with the general findings in the report and noted that the Board

        has initiated a process that addresses the OIGs’ recommendation to
        develop criteria and corresponding enforcement actions for non-capital
        factors;

        will continue to consider the recommendation noted in the OIGs’ report to
        increase the minimum PCA capital levels; and

        will defer to the FDIC on changes in deposit insurance premiums, but the
        Board will submit views if solicited by the FDIC.


Semiannual Report to Congress                23                         October 2011
FOLLOW-UP ACTIVITIES AT THE BOARD

Follow-up on the Inspection of the Board’s Law Enforcement Unit

Our March 2009 Report on the Inspection of the Board’s Law Enforcement Unit
contained two recommendations to enhance the Law Enforcement Unit’s (LEU’s)
internal control environment by disposing of obsolete ammunition and
establishing standard forms for custody transfers involving weapons or
ammunition to be destroyed. We have reviewed the LEU’s actions in response to
our recommendations and have determined that the efforts taken are sufficient to
close them both.


ONGOING INSPECTION AND EVALUATION WORK AT THE BOARD

Failed Bank Reviews

Section 38(k) of the FDI Act, as amended by the Dodd-Frank Act, requires that
the OIG review the supervision of failed banks when the losses to the DIF are
above the materiality threshold or are at or below the threshold but exhibit
unusual circumstances warranting an in-depth review. A $200 million threshold
applies to losses that occur between January 1, 2010, and December 31, 2011. As
discussed below, we are currently conducting five failed bank reviews. These
banks had total assets of approximately $3.6 billion and total losses estimated at
$1.1 billion, or approximately 30 percent of total assets.


Legacy Bank

On March 11, 2011, the Wisconsin Department of Financial Institutions closed
Legacy Bank (Legacy), headquartered in Milwaukee, Wisconsin. At closure, the
FDIC reported that Legacy had $190.4 million in total assets as of December 31,
2010. As of March 11, 2011, the FDIC estimated that the cost of the failure to the
DIF would be $43.5 million, which did not meet the materiality threshold as
defined under section 38(k) of the FDI Act. However, we have determined that
Legacy’s failure presents unusual circumstances warranting an in-depth review
because (1) examiners concluded that the bank’s CEO engaged in an unsafe and
unsound banking practice and (2) the bank received $5.5 million in funds from the
Treasury’s CPP under the TARP. We expect to issue our report by
December 31, 2011.


The Park Avenue Bank

On April 29, 2011, the Georgia Department of Banking and Finance closed The
Park Avenue Bank (Park Avenue), headquartered in Valdosta, Georgia. At


Semiannual Report to Congress               24                         October 2011
closure, the FDIC reported that Park Avenue had approximately $953.3 million in
total assets as of December 31, 2010. On May 27, 2011, the FDIC IG notified our
office that the FDIC had estimated a $326.1 million loss to the DIF, which
exceeds the statutory threshold requiring us to conduct a material loss review. As
such, we have initiated a material loss review and plan to issue our report by
November 27, 2011.


First Chicago Bank and Trust

On July 8, 2011, the Illinois Department of Financial and Professional Regulation
closed First Chicago Bank and Trust (First Chicago), located in Chicago, Illinois.
At closure, the FDIC reported that First Chicago had $950.8 million in total
assets. On August 22, 2011, the FDIC IG notified our office that the FDIC had
estimated a $284.3 million loss to the DIF, which exceeds the statutory threshold
requiring us to conduct a material loss review. As such, we have initiated a
material loss review and plan to issue our report by February 22, 2012.


Bank of Whitman

On August 5, 2011, the Washington Department of Financial Institutions closed
Bank of Whitman (Whitman), headquartered in Colfax, Washington. At closure,
the FDIC reported that Whitman had $548.6 million in total assets as of June 30,
2011. On August 5, 2011, the FDIC estimated that the cost of the failure to the
DIF would be $134.8 million, which did not meet the materiality threshold as
defined under section 38(k) of the FDI Act. However, we have determined that
Whitman’s failure presents unusual circumstances warranting an in-depth review
because, among other factors, (1) senior bank officials allegedly colluded with
other banks in a scheme designed to increase capital; and (2) a borrower with
whom Whitman had a substantial relationship was allegedly involved in a Ponzi
scheme, which may have involved the use of bank funds. Whitman was cited for
several violations of Washington’s legal lending limit, including loans made to
this borrower. We expect to issue our report by June 2012.


Bank of the Commonwealth

On September 23, 2011, Bank of the Commonwealth, Norfolk, Virginia, was
closed by the Virginia State Corporation Commission. At the time of the closure,
the FDIC reported that Bank of the Commonwealth had total assets of $985.1
million. The FDIC estimates that the failure will result in a $268.3 million loss to
the DIF, which exceeds the statutory threshold requiring us to conduct a material
loss review. As such, we have initiated a material loss review and plan to issue
our report by April 2012.



Semiannual Report to Congress                25                         October 2011
Review of the Board’s Oversight of the Next Generation $100 Note (Currency)
Production

On October 1, 2010, the Board announced a delay in the issue date of the
redesigned Next Generation $100 note originally scheduled for February 10,
2011. Pursuant to the Federal Reserve Act, the Board is authorized to issue
Federal Reserve notes, which are produced by the Treasury’s Bureau of
Engraving and Printing. The Bureau of Engraving and Printing identified a
problem with sporadic creasing of newly printed $100 notes. We are conducting
a concurrent review with the Treasury OIG. Our work is focused on the
following objectives:

        Assess the Board’s oversight of the design and production of the $100
        notes;

        Review the actions taken to address the current printing problems and the
        controls initiated to minimize the likelihood of future printing problems;
        and

        Assess plans for the disposition of the $100 notes that have already been
        printed.

We have completed our fieldwork and expect to issue the report during the next
reporting period.


Inspection of the Board’s Protective Services Unit

During this period, we initiated an inspection of the Board’s Protective Services
Unit (PSU), the organization that ensures the physical security of the Chairman of
the Board of Governors. The USA PATRIOT Act of 2001 granted the Board
certain federal law enforcement authorities, and the regulations implementing this
authority designated the OIG as the External Oversight Function for the Board’s
law enforcement programs. We are performing this inspection to fulfill our
External Oversight Function responsibility. The objective of this inspection is to
provide reasonable assurance that the PSU is in compliance with applicable laws,
regulations, policies, and procedures.




Semiannual Report to Congress               26                          October 2011
Information on Nonmaterial Losses to the Deposit
Insurance Fund, as Required by the Dodd-Frank Act
The FDI Act, as amended by the Dodd-Frank Act, requires the IG of the
appropriate federal banking agency to report, on a semiannual basis, certain
information on financial institutions that incurred nonmaterial losses to the DIF
and that failed during the respective six-month period. As shown in the table on
the next page, three failed state member banks had losses to the DIF that did not
meet the materiality threshold, which currently is a loss in excess of $200 million.
Cumulatively, these institutions had total assets of approximately $929 million
and losses estimated at $186.5 million, or 20 percent of total assets.

When bank failures result in nonmaterial losses to the DIF, the IG is required to
determine (1) the grounds identified by the federal banking agency or the state
bank supervisor for appointing the FDIC as receiver,1 and (2) whether the losses
to the DIF present unusual circumstances that would warrant an in-depth review.
If no unusual circumstances are identified, the IG is required to provide an
explanation of its determination.

We reviewed each of the three state member bank failures to determine if the
resulting loss to the DIF exhibited unusual circumstances that would warrant an
in-depth review. In general, we considered a loss to the DIF to present unusual
circumstances if the conditions associated with the bank’s deterioration, ultimate
closure, and supervision were not addressed in any of our prior bank failure
reports or involved potential fraudulent activity. To make this determination, we
analyzed key data from the five-year period preceding the bank’s closure. This
data generally comprised Federal Reserve Bank and state examination schedules;
Reports of Examination, including CAMELS ratings and financial data; informal
and formal enforcement actions and other supervisory activities, such as
visitations; and PCA determinations. As shown in the table on the next page, we
determined that losses to the DIF for one of the three state member banks
exhibited unusual circumstances warranting an in-depth review.




   1. Typically, the state closes state member banks and appoints the FDIC as receiver.

Semiannual Report to Congress                      27                               October 2011
Nonmaterial State Member Bank Failures,
April 1, 2011, through September 30, 2011a
                                                            DIF
                                                          Projected                      OIG Summary of
                                            Asset size      Loss          Closure        State’s Grounds
 State Member Bank           Location       (millions)    (millions)       Date          for Receivership        OIG Determination

 LandMark Bank of           Sarasota, FL     $ 271.1        $ 34.4      07/22/2011            Insolvent                No unusual
   Florida                                                                                                        circumstances noted

 Virginia Business           Richmond,      $ 93.6          $ 17.3      07/29/2011            At or near               No unusual
    Bank                        VA                                                           insolvency           circumstances noted

 Bank of Whitman            Colfax, WA       $ 564.3        $134.8      08/05/2011        Unsafe condition      Unusual circumstances
                                                                                                                identified; report to be
                                                                                                                 issued by 06/30/2012
                                                                                                                     (see page 25)
    a. The asset size and DIF projected loss included in the table were provided in the official notification from the FDIC OIG
following each bank’s closure. These numbers may subsequently change.




Semiannual Report to Congress                                     28                                         October 2011
Bureau of Consumer Financial Protection
The Dodd-Frank Act established the Bureau as an independent entity within the
Federal Reserve System and designated our office as the Bureau’s OIG. The
Bureau’s statutory purpose is to implement and, as applicable, consistently
enforce federal consumer financial law to ensure that all consumers have access to
markets for financial products and services and that these markets are fair,
transparent, and competitive. On July 21, 2011, certain authorities transferred
from other agencies to the Bureau. The following are highlights of our Bureau-
related oversight activities during the last six months.


COMPLETED WORK

Review of CFPB Implementation Planning Activities

On July 15, 2011, our office and the Treasury OIG jointly issued a report on the
CFPB’s implementation planning activities related to standing up the agency.
The review’s objective was to assess the CFPB’s efforts to (1) identify mission-
critical activities and legislative mandates; (2) develop and execute a
comprehensive implementation plan and timeline for mission-critical activities
and legislative mandates; and (3) communicate its implementation plan and
timeline to certain key stakeholders.

Our review found that the CFPB identified and documented implementation
activities critical to standing up the agency’s functions and necessary to address
certain Dodd-Frank Act requirements. Furthermore, the CFPB developed and
was implementing appropriate plans that supported ongoing operations as well as
the July 21, 2011, transfer of employees and functions. We reported the status of
the CFPB’s implementation progress for certain activities as follows:

        As of June 17, 2011, 19 of the CFPB’s 35 assistant director or equivalent
        positions had been filled. According to the CFPB, the agency also had
        hired a Regional Director for its San Francisco office and was in the
        process of recruiting leaders for its Washington, DC; Chicago; and New
        York offices.

        As of June 30, 2011, the CFPB offered transfers to 349 employees from
        other federal regulatory agencies. As of that date, 172 employees had
        accepted the CFPB’s offers, and CFPB officials were waiting for
        additional responses to their offers.

        On February 13, 2011, the CFPB developed an interim pay structure to
        implement a payroll system. On May 8, 2011, the agency refined its pay
        structure, which comprises 9 pay bands consisting of 18 pay ranges.

        According to CFPB documents, the agency plans to continue using
        Treasury’s Bureau of the Public Debt Administrative Resource Center to


Semiannual Report to Congress               29                         October 2011
        provide for its financial management. The CFPB also plans to continue
        relying on Treasury’s infrastructure for its general support systems, such
        as email. Contractors provide additional information technology support.

        According to CFPB officials, starting on July 21, 2011, CFPB expected to
        take website inquiries and phone calls from consumers, initiate the
        complaint inquiry process, and begin case management for tracking
        complaints. However, the agency plans to initially only process
        complaints related to credit cards. According to a CFPB timeline, the
        agency plans to process complaints concerning other consumer financial
        products over the course of the next year.

We also reported that the CFPB communicated its planning and implementation
of standup activities to internal stakeholders and provided information to other
consumer regulatory agencies regarding its transfer planning. Nevertheless, we
concluded that CFPB’s operational success will depend, in part, on its ability to
effectively execute its plans. As part of our ongoing oversight efforts, we plan to
continue to monitor the progress of CFPB’s implementation activities.


ONGOING WORK

In addition to conducting specific audits and evaluations, we routinely monitor
CFPB activities and conduct regular meetings with CFPB officials and
management. This effort primarily focuses on CFPB’s budget, funding, and
staffing; supervision of financial institutions and other entities; and strategic
planning and coordination with federal and state agencies. This ongoing
oversight is an integral part of our audit and evaluation planning to identify areas
that pose the greatest risks to the economy, efficiency, and effectiveness of CFPB
operations. Among other things, our work will focus on reviews of the CFPB’s
funding and procurement, consumer response activities, supervisory program,
operational and administrative infrastructure, and information security pursuant to
FISMA.


Evaluation of the CFPB’s Contract Solicitation and Selection Process

The CFPB established a procurement function and has been entering into
contracts for goods and services. Accordingly, we are conducting an evaluation
of certain aspects of the CFPB’s contracting process. The evaluation’s objective
is to determine whether the CFPB’s contract solicitation and selection processes
and practices are compliant with applicable rules established by the Federal
Acquisition Regulation. We plan to focus on a specific contract type, which we
will select after an assessment of the CFPB’s overall contracting activities to date.




Semiannual Report to Congress                30                          October 2011
Audit of the CFPB’s Information Security Program

During this reporting period, we initiated an audit of the CFPB’s information
security program and practices. The audit will be performed pursuant to FISMA,
which requires that each agency IG conduct an annual independent evaluation of
the agency’s information security. Based on FISMA’s requirements, our specific
audit objectives are to evaluate (1) the CFPB’s compliance with FISMA and
related information security policies, procedures, standards, and guidelines and
(2) the effectiveness of security controls and techniques for a subset of the
CFPB’s information systems.


Evaluation of the CFPB’s Consumer Response Center

On July 21, 2011, the CFPB’s Consumer Response Center began accepting
complaints regarding credit cards through its website and toll-free number,
according to the agency. The CFPB plans to process complaints about other
consumer financial products over the course of the next year. As part of our
office’s oversight responsibilities, we will be assessing certain aspects of the
CFPB’s Consumer Response Center. Our objectives are to (1) evaluate the
process the CFPB has established to receive, track, and respond to consumer
complaints, (2) assess the CFPB’s coordination with federal and state regulatory
agencies regarding the processing and referral of complaints, and (3) determine
the extent to which the CFPB is assessing its performance when responding to
consumer complaints.




Semiannual Report to Congress              31                         October 2011
Investigations
The Investigations program conducts criminal, civil, and administrative
investigations related to Board and Bureau programs and operations. The OIG
operates under statutory law enforcement authority granted by the U.S. Attorney
General, which vests our special agents with the authority to carry firearms, make
arrests without a warrant, seek and execute search and arrest warrants, and seize
evidence. Our special agents engage in joint task force and other criminal
investigations involving matters such as bank fraud, mortgage fraud, money
laundering, and other financially-related crimes impacting federally-regulated
financial institutions. OIG investigations are conducted in compliance with the
CIGIE’s Quality Standards for Investigations.


INVESTIGATIVE ACTIVITIES

During this reporting period, we opened 10 cases, closed 11 cases, and ended the
period with 38 investigations in progress. Due to the sensitivity of these
investigations, we only report on concluded and ongoing activities that have
resulted in criminal, civil, or administrative action. The following summaries
highlight our significant investigative activity during this semiannual reporting
period.


Savannah Real Estate Developer Sentenced to over Four Years in Prison for
Conspiring to Defraud First National Bank and Others

On August 15, 2011, a Savannah real estate developer was sentenced to 52
months in prison in connection with a conspiracy to defraud the First National
Bank, Savannah, Georgia, and other banks of over $2 million. In addition to his
prison sentence, the developer was ordered to pay almost $2.4 million in
restitution and to serve three years supervised release. The OIG initiated this
investigation based on allegations that First National Bank and First National
Corporation, a Board-regulated bank holding company, may have falsely
approved and funded several commercial loans to nominee borrowers to help
mask delinquent loans that were impacting the bank’s financial position.

According to the evidence presented during the sentencing and guilty plea
hearings, the Savannah real estate developer, acting on behalf of two businesses,
entered into loan agreements with First National Bank and other banks for the
purchase and development of areas within downtown Savannah. During a two-
year period, the real estate developer submitted dozens of fictitious subcontractor
invoices to First National Bank for work that had not been performed. As a
result, the real estate developer fraudulently received over $1 million to which he
was not entitled. In an effort to prevent the loans from becoming delinquent, the
developer conspired with others, including employees of First National Bank, to
arrange over $1 million in nominee loans, the proceeds of which were not for the



Semiannual Report to Congress               32                            October 2011
benefit of the borrowers, but for the benefit of the developer and his co-
conspirators.

This investigation was conducted jointly by the United States Attorney’s Office
for the Southern District of Georgia, the U.S. Secret Service, the FDIC OIG, the
Treasury OIG, and the Board OIG.


Owner of Illinois Agricultural Business Indicted on Fraud Charges

On September 29, 2011, the owner of an Illinois agricultural business was
indicted by a federal grand jury on one felony count of loan application fraud, two
felony counts of bank fraud, and one felony count of wire fraud. The OIG
initiated this investigation after receiving information alleging loan fraud at
Peoples Bank and Trust (Peoples Bank), a Board-regulated institution.

According to the indictment, between 2006 and 2008, the business owner
obtained a substantial amount of financing from Corn Belt Bank, an FDIC-
regulated institution. In May 2008, when Corn Belt Bank was no longer able to
provide sufficient financial support, the owner arranged for financing with
Peoples Bank, which included a $10 million line of credit. The purposes of the
loan associated with the line of credit included financing the business’ operations
and paying off a prior loan from Corn Belt Bank. Corn Belt Bank purchased a 20
percent participation in the new loan. In February 2009, Corn Belt Bank was
placed into receivership.

The indictment alleges that the business owner provided false information to
Peoples Bank in order to secure the $10 million line of credit. As part of the loan
process, the owner provided fraudulent reports regarding the financial position of
his business and the status of collateral, including his accounts receivable, so that
Peoples Bank would approve and fund the $10 million line of credit. The
indictment further alleges that, after the line of credit was approved and funded,
the owner continued to provide false information to Peoples Bank. Ultimately,
the business defaulted on the loan, resulting in a loss of most of the $10 million
Peoples Bank loaned to the business.

The investigation was conducted jointly by the United States Attorney’s Office
for the Eastern District of Missouri, the Federal Bureau of Investigation, the FDIC
OIG, and the Board OIG.


Individual Sentenced for Trafficking in Counterfeit Goods

During this reporting period, a second individual who was previously indicted
entered a guilty plea to 1 count of trafficking in counterfeit goods and was
sentenced to 12 months and 1 day in prison, with 3 years supervised release and


Semiannual Report to Congress                33                           October 2011
18 months home detention. The individual was required to pay a fine of $15,000
and a special assessment of $100. The court also seized property owned by the
individual in the amount of $657,865. As was previously reported, the OIG
initiated its investigation based on a request for assistance from the United States
Postal Inspection Service concerning alleged money laundering and structured
deposits by two subjects. During this investigation, OIG special agents worked
closely with Postal Inspectors, analyzing financial transactions in support of the
money laundering violations.

The investigation determined that, over a one-year period, the subjects deposited
approximately $1 million of Postal Money Orders into bank accounts at various
financial institutions, including several Board-regulated institutions. Information
developed during the investigation revealed that the subjects were aware of the
Postal Money Order purchasing requirements and patterned their purchases to
avoid detection.

In December 2009, a federal grand jury indicted the subjects on charges of money
laundering and trafficking in counterfeit goods. The indictment charged that the
subjects knowingly conducted financial transactions affecting interstate and
foreign commerce with the structured purchase of 636 Postal Money Orders
valued at $579,865, which involved the proceeds from the unlawful sale of
counterfeit merchandise throughout the United States.


Alleged Threat Against the Federal Reserve Board

In November 2010, the OIG initiated an investigation into alleged threatening
communications by a Board employee. According to the information received,
the Board employee threatened to blow up the Board’s building. The employee
made the threat in the presence of other Board and Reserve Bank employees.
Based on the information disclosed during the course of the investigation, the
Board terminated the employee due to the serious nature of the statements made
and the threat posed to Board personnel and facilities.




Semiannual Report to Congress                34                          October 2011
INVESTIGATIVE STATISTICS
Summary Statistics on Investigations during the Reporting Period
                             Investigative Actions                      Number

 Investigative Caseload
    Investigations Open at End of Previous Reporting Period               39
    Investigations Opened during Reporting Period                         10
    Investigations Closed during Reporting Period                         11
    Total Investigations Open at End of Reporting Period                  38
 Investigative Results for Reporting Period
    Referred to Prosecutor                                                  7
    Joint Investigations                                                   35
    Referred for Audit                                                      0
    Referred for Administrative Action                                      0
    Oral and/or Written Reprimands                                          1
    Terminations of Employment                                              1
    Arrests                                                                 0
    Suspensions                                                             0
    Debarments                                                              0
    Indictments                                                             1
    Criminal Information                                                    0
    Convictions                                                             1
    Monetary Recoveries                                                    $0
    Civil Actions (Fines and Restitution)                                  $0
    Criminal Fines, Restitution, and Forfeitures                   $3,069,438




HOTLINE ACTIVITIES
To report fraud, waste, abuse, or mismanagement related to the programs or
operations of the Board or the Bureau, individuals may contact the OIG Hotline
by mail, telephone, fax, or email. Hotline staff analyzes all incoming complaints
and, as appropriate, coordinates with OIG and/or other federal and Reserve Bank
staff. During this reporting period, the Hotline received 181 complaints.

The OIG continued to receive a significant number of complaints involving
suspicious solicitations invoking the Federal Reserve name. One of these types of
schemes, known as the ―Grant Award‖ scam, occurs when an individual receives
a solicitation, purportedly from a representative of the Board or a Federal Reserve
Bank, falsely claiming that the individual has been awarded a large sum of
money. Hotline staff continues to advise all individuals that these scams, as well
as similar ―phishing‖ and ―advance fee‖ scams, are solicitations that attempt to
obtain the personal and/or financial information of the recipient and that neither
the Board nor the Federal Reserve Banks endorse or have any involvement in
them. As appropriate, the OIG may investigate these complaints. During this
reporting period, several complaints involving victims of such scams who
incurred monetary losses were referred to the OIG’s Investigations program for
appropriate action. Hotline staff is continuing to monitor and analyze these types
of complaints, as well as work with Federal Reserve Bank staff to assess these
fraudulent scams.



Semiannual Report to Congress                                 35                October 2011
A number of other Hotline complaints were from individuals wanting to file non-
criminal consumer complaints against financial institutions or mortgage
companies. After analysis of these complaints, Hotline staff typically refers the
complainant to the consumer group of the appropriate federal regulator for the
institution involved, such as the Federal Reserve Consumer Help group or the
Customer Assistance Group of the OCC. Other Hotline complaints were from
individuals seeking advice or information regarding consumer protections and
Board regulations. Such inquiries are referred to the appropriate Board or Bureau
offices and other federal or state agencies.


Summary Statistics on Hotline Activities during the Reporting Period
           Hotline Complaints                                  Number

 Complaints Pending from Previous Reporting Period                 1
 Complaints Received during Reporting Period                     181
 Total Complaints for Reporting Period                           182

 Complaints Resolved during Reporting Period                     180
 Complaints Pending                                                2




Semiannual Report to Congress                        36                 October 2011
Legal Services
The Legal Services program serves as the independent legal counsel to the IG and
the OIG staff. The Legal Services staff provides comprehensive legal advice,
research, counseling, analysis, and representation in support of OIG audits,
investigations, inspections, evaluations, and other professional, management, and
administrative functions. This work provides the legal basis for the conclusions,
findings, and recommendations contained within OIG reports. Moreover, Legal
Services keeps the IG and the OIG staff aware of recent legal developments that
may affect the activities of the OIG, the Board, and the CFPB.

In accordance with section 4(a)(2) of the IG Act, the Legal Services staff conducts
an independent review of newly enacted and proposed legislation and regulations
to determine their potential effect on the economy and efficiency of the Board’s
and the CFPB’s programs and operations. During this reporting period, Legal
Services reviewed 30 legislative and 14 regulatory items.




Semiannual Report to Congress             37                           October 2011
Communications and Coordination
While the OIG’s primary mission is to enhance the economy, efficiency, and
effectiveness of Board and Bureau programs and operations, we also coordinate
externally and work internally to achieve our goals and objectives. Externally, we
regularly coordinate with and provide information to Congress and congressional
staff. We also are active members of the broader IG professional community and
promote collaboration on shared concerns. Internally, we consistently strive to
enhance and maximize efficiency and transparency in our infrastructure and
day-to-day operations. Within the Board, the Bureau, and the Federal Reserve
System, we continue to provide information about the OIG’s roles and
responsibilities. In addition, we participate in an advisory capacity on various
Board work groups. Highlights of our activities follow.


Congressional Coordination and Testimony

The OIG has been communicating and coordinating with various congressional
committees on issues of mutual interest. During the reporting period, we
provided 17 responses to congressional members and staff.


Council of Inspectors General on Financial Oversight

Consistent with the Dodd-Frank Act, the CIGFO is required to meet at least
quarterly to facilitate the sharing of information among the IGs and to discuss the
ongoing work of each IG, with a focus on concerns that may apply to the broader
financial sector and ways to improve financial oversight. The Treasury IG chairs
the CIGFO. The Dodd-Frank Act authorizes the CIGFO, by a majority vote, to
convene a working group to evaluate the effectiveness and internal operations of
the FSOC. In addition, the CIGFO is required to produce an annual report that
includes a section of individual reports under the ―exclusive editorial control‖ of
each CIGFO member highlighting concerns and recommendations that may apply
to the broader financial sector. The annual report must also include a summary of
general observations of CIGFO members focusing on measures that should be
taken to improve financial oversight. The CIGFO issued its first annual report on
July 21, 2011. It included a discussion of current and pending joint projects of
CIGFO members and an overview of FSOC’s compliance with statutory
requirements—FSOC had either met or was on target to meet all requirements to
date. The report included sections, developed by each IG and under his or her
exclusive editorial control, that established a baseline of oversight activity
conducted by each IG from the beginning of the current financial crisis through
July 14, 2011.




Semiannual Report to Congress             38                           October 2011
Council of the Inspectors General on Integrity and Efficiency and IG
Community Involvement

The IG serves as a member of the CIGIE. Collectively, the members of the CIGIE
help improve government programs and operations. The CIGIE provides a forum
to discuss government-wide issues and shared concerns. The IG also serves as a
member of CIGIE’s Legislation Committee and Inspection and Evaluation
Committee. The Legislation Committee is the central point of information
regarding legislative initiatives and congressional activities that may affect the
community. The Inspection and Evaluation Committee provides leadership for the
inspection and evaluation community's effort to improve agency program
effectiveness by maintaining professional standards, leading the development of
protocols for reviewing management issues that cut across departments and
agencies, promoting the use of advanced program evaluation techniques, and
fostering awareness of evaluation and inspection practice in OIGs.

The Associate IG for Legal Services serves as the Vice Chair of the Council of
Counsels to the IG, and her staff attorneys are members of the council. In
addition, the Associate IG for Audits and Attestations serves as chair of the IT
Committee of the Federal Audit Executive Council and works with audit staff
throughout the IG community on common IT audit issues.

We were recently honored to receive two awards from the CIGIE. Our report on
The Federal Reserve’s Section 13(3) Lending Facilities to Support Overall
Market Liquidity: Function, Status, and Risk Management won an Audit Award
for Excellence, and several of our employees are members of an information
technology team that won the Barry R. Snyder Joint Award for their collaborative
work to make sweeping changes to OIG Federal Information Security
Management Act review methodologies to improve agencies’ cyber security
infrastructures and controls.


Financial Regulatory Coordination

To foster cooperation on issues of mutual interest, including issues related to the
current financial crisis, the IG meets periodically with the IGs from other federal
financial regulatory agencies: the FDIC, the Treasury, the NCUA, the SEC, the Farm
Credit Administration, the Commodity Futures Trading Commission, the Pension
Benefit Guarantee Corporation (PBGC), the Export-Import Bank, and the FHFA. In
addition, the Associate IG for Audits and Attestations and the Associate IG for
Inspections and Evaluations meet with their financial regulatory agency OIG
counterparts to discuss various topics, including bank failure material loss review best
practices, annual plans, and ongoing projects. We also coordinate with the
Government Accountability Office regarding financial regulatory and other related
issues.


Semiannual Report to Congress              39                           October 2011
OIG Information Technology

                         During this reporting period, we enhanced the OIG’s intranet
                         website hosted on the Board’s server to better share
                         information with Board employees. Furthermore, we created
                         a secure internal intranet website for OIG staff to share their
                         projects, skills, ideas, and training. This is an ongoing project
                         that will evolve to continuously meet our business needs.

Consistent with the requirements of FISMA, we recently completed our second
bi-annual contingency test in coordination with the Board’s IT division. In
addition, we are in the process of selecting an independent contractor to conduct
the 2011 security review of the OIG’s IT infrastructure. This review will be
completed before the end of the next reporting period. We are also in the process
of replacing our investigative case management software, which we anticipate
completing before the end of the next reporting period.

We continue to represent the OIG as a member of the Board’s Information
Security Committee, Information Technology Advisory Group, NIST Transition
Workgroup, and Continuity of Operations Plan Working Group, as well as
CIGIE’s Chief Information Officer Working Group. We also have regularly
attended other IT working groups where we can exchange knowledge and
experience.




Semiannual Report to Congress                40                            October 2011
Appendixes
Appendix 1a
Audit, Inspection, and Evaluation Reports Issued to the Board with
Questioned Costs during the Reporting Perioda
                                       Reports                                              Number         Dollar Value

 For which no management decision had been made by the commencement of the                      0                 $0
    reporting period

 That were issued during the reporting period                                                   0                 $0

 For which a management decision was made during the reporting period                           0                 $0

  (i)    dollar value of recommendations that were agreed to by management                      0                 $0

  (ii)   dollar value of recommendations that were not agreed to by management                  0                 $0

 For which no management decision had been made by the end of the reporting period              0                 $0

 For which no management decision was made within six months of issuance                        0                 $0

  a. Because the Board is primarily a regulatory and policymaking agency, our recommendations typically focus on
program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated
with their implementation typicallyis not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          43                           October 2011
Appendix 1b
Audit, Inspection, and Evaluation Reports Issued to the Bureau with
Questioned Costs during the Reporting Perioda
                                       Reports                                              Number          Dollar Value

 For which no management decision had been made by the commencement of the                      0                 $0
    reporting period

 That were issued during the reporting period                                                   0                 $0

 For which a management decision was made during the reporting period                           0                 $0

  (i)    dollar value of recommendations that were agreed to by management                       0                $0

  (ii)   dollar value of recommendations that were not agreed to by management                  0                 $0

 For which no management decision had been made by the end of the reporting period              0                 $0

 For which no management decision was made within six months of issuance                        0                 $0

  a. Because the Bureau is primarily a regulatory and policymaking agency, our recommendations typically focus on
program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated
with their implementation typically is not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          44                           October 2011
Appendix 2a
Audit, Inspection, and Evaluation Reports Issued to the Board with
Recommendations that Funds Be Put to Better Use during the Reporting
Perioda
                                       Reports                                              Number          Dollar Value

 For which no management decision had been made by the commencement of the                      0                 $0
    reporting period

 That were issued during the reporting period                                                   0                 $0

 For which a management decision was made during the reporting period                           0                 $0

  (i)    dollar value of recommendations that were agreed to by management                       0                $0

  (ii)   dollar value of recommendations that were not agreed to by management                  0                 $0

 For which no management decision had been made by the end of the reporting period              0                 $0

 For which no management decision was made within six months of issuance                        0                 $0

  a. Because the Board is primarily a regulatory and policymaking agency, our recommendations typically focus on
program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated
with their implementation typically is not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          45                           October 2011
Appendix 2b
Audit, Inspection, and Evaluation Reports Issued to the Bureau with
Recommendations that Funds Be Put to Better Use during the Reporting
Perioda
                                       Reports                                              Number          Dollar Value

 For which no management decision had been made by the commencement of the                      0                 $0
    reporting period

 That were issued during the reporting period                                                   0                 $0

 For which a management decision was made during the reporting period                           0                 $0

  (i)    dollar value of recommendations that were agreed to by management                       0                $0

  (ii)   dollar value of recommendations that were not agreed to by management                  0                 $0

 For which no management decision had been made by the end of the reporting period              0                 $0

 For which no management decision was made within six months of issuance                        0                 $0

  a. Because the Bureau is primarily a regulatory and policymaking agency, our recommendations typically focus on
program effectiveness and efficiency, as well as strengthening internal controls. As such, the monetary benefit associated
with their implementation typically is not readily quantifiable.




_______________________________________________________________________________
Semiannual Report to Congress          46                           October 2011
Appendix 3a
OIG Reports to the Board with Recommendations that Were Open during
the Reporting Perioda
                                                                             Recommendations               Status of Recommendations

                                                          Issue                   Mgmt.       Mgmt.    Last Follow-up
                     Report Title                         Date         No.        Agrees     Disagrees      Date      Closed Open

 Evaluation of Service Credit Computations                08/05          3           3            –            03/07           1    2

 Security Control Review of the Central Document          10/06        16           16            –            09/09         14     2
   and Text Repository System (Non-public Report)

 Audit of the Board’s Payroll Process                     12/06          7           7            –            03/10           3    4

 Security Control Review of the Internet Electronic       02/07        13           13            –            09/09         12     1
   Submission System (Non-public Report)

 Audit of the Board’s Compliance with Overtime            03/07          2           2            –            03/08           1    1
   Requirements of the Fair Labor Standards Act

 Review of Selected Common Information Security           03/08          6           6            –            09/11           6    –
   Controls (Non-public Report)

 Security Control Review of the FISMA Assets              09/08        11           11            –            09/11         10     1
   Maintained by FRB Boston (Non-public Report)

 Evaluation of Data Flows for Board Employee Data         09/08          2           2            –            03/11           1    1
   Received by OEB and its Contractors (Non-public
   Report)

 Audit of the Board’s Information Security Program        09/08          2           2            –            11/10           1    1

 Control Review of the Board’s Currency                   09/08          6           6            –            03/10           5    1
   Expenditures and Assessments

 Audit of Blackberry and Cell Phone Internal Controls     03/09          3           3            –            09/11           2    1

 Inspection of the Board’s Law Enforcement Unit           03/09          2           2            –            07/11           2    –
    (Non-public Report)

 Security Control Review of the Audit Logging             03/09          4           4            –            09/11           3    1
   Provided by the Information Technology General
   Support System (Non-public Report)

 Audit of the Board’s Processing of Applications for      09/09          2           2            –              –             –    2
   the Capital Purchase Program under the Troubled
   Asset Relief Program

 Audit of the Board’s Information Security Program        11/09          4           4            –            11/10           2    2

 Security Control Review of the Lotus Notes and           06/10        10           10            –              –             –   10
   Lotus Domino Infrastructure (Non-public Report)

 Audit of the Board’s Information Security Program        11/10          3           3            –              –             –    3

 Security Control Review of the Internet Electronic       12/10          6           6            –              –             –    6
   Submission System (Non-public Report)

   a. A recommendation is closed if (1) the corrective action has been taken; (2) the recommendation is no longer applicable; or (3) the
appropriate oversight committee or administrator has determined, after reviewing the position of the OIG and division management, that
no further action by the agency is warranted. A recommendation is open if (1) division management agrees with the recommendation
and is in the process of taking corrective action, or (2) division management disagrees with the recommendation and we have referred or
are referring it to the appropriate oversight committee or administrator for a final decision.




Semiannual Report to Congress                                47                                          October 2011
Appendix 3a—continued
OIG Reports to the Board with Recommendations that Were Open during
the Reporting Period
                                                                            Recommendations         Status of Recommendations

                                                       Issue                    Mgmt.     Mgmt.    Last Follow-up
                    Report Title                       Date        No.          Agrees   Disagrees      Date      Closed Open

 Review of the Joint Implementation Plan for           03/11        1b             1          –        09/11         1    –
   theTransfer of Office of Thrift Supervision
   Functions

 Audit of the Board’s Transportation Subsidy           03/11         3             3          –          –           –    3
   Program

 Response to a Congressional Request Regarding the     06/11         2             2          –          –           –    2
   Economic Analysis Associated with Specified
   Rulemakings

 Review of the Failure of Pierce Commercial Bank       09/11         2             2          –          –           –    2

 Security Control Review of the Visitor Registration   09/11        10            10          –          –           –   10
   System (Non-public report)

 Audit of the Board’s Implementation of the            09/11         1             1          –          –           –    1
   Dodd-Frank Wall Street Reform and Consumer
   Protection Act

 Summary Analysis of Failed Bank Reviews               09/11         3             3          –          –           –    3

 Evaluation of Prompt Regulatory Action                09/11        1   b
                                                                                   1          –          –           –    1
   Implementation

   b. This recommendation was directed jointly to the OCC, the FDIC, and the Board.




Semiannual Report to Congress                             48                                      October 2011
Appendix 3b
OIG Reports to the Bureau with Recommendations that Were Open during
the Reporting Period
                                                            Recommendations         Status of Recommendations

                                            Issue               Mgmt.     Mgmt.    Last Follow-up
                Report Title                Date      No.       Agrees   Disagrees      Date      Closed Open

 (None)                                       -        -            -         -          -           -    -

There are no OIG reports to the Bureau with open recommendations.




Semiannual Report to Congress                  49                                 October 2011
Appendix 4a
Audit, Inspection, and Evaluation Reports Issued to the Board during the
Reporting Period
                                          Title                                            Type of Report

 Reviews of Bank Failures

   Material Loss Review of First Community Bank                                               Evaluation

   Review of the Failure of Pierce Commercial Bank                                            Evaluation

   Summary Analysis of Failed Bank Reviews                                                    Evaluation

 Information Technology Audits

   Security Control Review of the Visitor Registration System (Non-public Report)               Audit

 Program Audits and Evaluations

   Response to a Congressional Request Regarding the Economic Analysis Associated with        Evaluation
   Specified Rulemakings

   Status of the Transfer of Office of Thrift Supervision Functions                           Evaluation

   Audit of the Board’s Implementation of the Dodd-Frank Wall Street Reform and Consumer        Audit
   Protection Act

   Evaluation of Prompt Regulatory Action Implementation                                      Evaluation




Total Number of Audit Reports: 2
Total Number of Inspection and Evaluation Reports: 6

Full copies of these reports are available on our website at
http://www.federalreserve.gov/oig/default.htm




Semiannual Report to Congress                                50                             October 2011
Appendix 4b
Audit, Inspection, and Evaluation Reports Issued to the Bureau during the
Reporting Period
                                      Title                      Type of Report

 Program Audits and Evaluations

   Review of CFPB Implementation Planning Activities                Evaluation



Total Number of Audit Reports: 0
Total Number of Inspection and Evaluation Reports: 1

Full copies of these reports are available on our website at
http://www.federalreserve.gov/oig/default.htm




Semiannual Report to Congress                          51         October 2011
Appendix 5
OIG Peer Reviews

Government auditing and investigative standards require that our audit and
investigative units each be reviewed by a peer OIG organization every three
years. Section 989C of the Dodd-Frank Act amended the IG Act to require that
OIGs provide in their semiannual reports to Congress specified information
regarding (1) peer reviews of their respective organizations and (2) peer reviews
they have conducted of other OIGs. The following information is provided to
address the Dodd-Frank Act requirements.

         During the reporting period, the PBGC OIG began a peer review of our
         audit organization’s quality control system in place for the period April 1,
         2010, through March 31, 2011. The review is focused on whether our
         system of quality control was suitably designed and whether we are
         complying with the quality control system, in order to provide us with
         reasonable assurance of conforming with applicable professional
         standards. The review is ongoing, so a final report on the results of the
         review has not been issued. We will report the results of PBGC’s review
         in our next semiannual report to Congress. No peer review
         recommendations are pending from any previous peer reviews of our
         audit organization.

         The last peer review of the OIG’s Investigations program was completed
         in March 2008 by the U.S. Government Printing Office OIG. No
         recommendations from this or any prior peer reviews are pending.

         We did not conduct any peer reviews of other OIGs during this reporting
         period.


Copies of our peer review reports are available on our website at
http://www.federalreserve.gov/oig/peer_review_reports.htm.




Semiannual Report to Congress              52                            October 2011
Appendix 6
Cross-References to the IG Act
Indexed below are the reporting requirements prescribed by the IG Act with
the contents of this report.
      Section                                             Source                                   Page(s)

4(a)(2)           Review of legislation and regulations                                              37

5(a)(1)           Significant problems, abuses, and deficiencies                                    None

5(a)(2)           Recommendations with respect to significant problems                              None

5(a)(3)           Significant recommendations described in previous semiannual reports on which     None
                  corrective action has not been completed

5(a)(4)           Matters referred to prosecutorial authorities                                      35

5(a)(5);6(b)(2)   Summary of instances where information was refused                                None

5(a)(6)           List of audit, inspection, and evaluation reports                                 50-51

5(a)(7)           Summary of particularly significant reports                                       None

5(a)(8)           Statistical table of questioned costs                                             43-44

5(a)(9)           Statistical table of recommendations that funds be put to better use              45-46

5(a)(10)          Summary of audit, inspection, and evaluation reports issued before the            None
                  commencement of the reporting period for which no management decision has
                  been made

5(a)(11)          Significant revised management decisions made during the reporting period         None

5(a)(12)          Significant management decisions with which the Inspector General is in           None
                  disagreement

5(a)(14), (15),   Peer review summary                                                                52
 and (16)




Semiannual Report to Congress                               53                                    October 2011
Table of Acronyms and Abbreviations
 Board               Board of Governors of the Federal Reserve System

 BS&R                Division of Banking Supervision and Regulation

 Bureau              Bureau of Consumer Financial Protection

 CBEM                Commercial Bank Examination Manual

 CEO                 Chief Executive Officer

 CFPB                Bureau of Consumer Financial Protection

 CIGFO               Council of Inspectors General on Financial Oversight

 CIGIE               Council of the Inspectors General on Integrity and Efficiency

 CLD                 Construction, Land, and Land Development

 CPP                 Capital Purchase Program

 CRE                 Commercial Real Estate

 DIF                 Deposit Insurance Fund

 Dodd-Frank Act      Dodd-Frank Wall Street Reform and Consumer Protection Act

 FDI Act             Federal Deposit Insurance Act

 FDIC                Federal Deposit Insurance Corporation

 FFIEC               Federal Financial Institutions Examination Council

 FHFA                Federal Housing Finance Agency

 First Chicago       First Chicago Bank and Trust

 First Community     First Community Bank

 FISMA               Federal Information Security Management Act of 2002

 FRB Kansas City     Federal Reserve Bank of Kansas City

 FRB Richmond        Federal Reserve Bank of Richmond

 FRB San Francisco   Federal Reserve Bank of San Francisco

 FSOC                Financial Stability Oversight Council

 IG                  Inspector General

 IG Act              Inspector General Act of 1978, as amended




Semiannual Report to Congress                  55                                October 2011
Table of Acronyms and Abbreviations
 IT                  Information Technology

 Legacy              Legacy Bank

 LEU                 Law Enforcement Unit

 NCUA                National Credit Union Administration

 NIST                National Institute of Standards and Technology

 NRAS                National Remote Access Services

 OCC                 Office of the Comptroller of the Currency

 OEB                 Office of Employee Benefits

 OIG                 Office of Inspector General

 OMB                 Office of Management and Budget

 OTS                 Office of Thrift Supervision

 Park Avenue         The Park Avenue Bank

 PBGC                Pension Benefit Guaranty Corporation

 PCA                 Prompt Corrective Action

 Peoples Bank        Peoples Bank and Trust

 Pierce              Pierce Commercial Bank

 PRA                 Prompt Regulatory Action

 PSU                 Protective Services Unit

 Pubweb              Public Website

 SEC                 Securities and Exchange Commission

 SIC                 Secure Inventory Closet

 TARP                Troubled Asset Relief Program

 Treasury            U.S. Department of the Treasury

 VRS                 Visitor Registration System

 Whitman             Bank of Whitman




Semiannual Report to Congress                   56                    October 2011
           Inspector General Hotline
                1-202-452-6400
                1-800-827-3340

   Report: Fraud, Waste, or Mismanagement
        Caller may remain anonymous

             You may also write to:
           Office of Inspector General
                    HOTLINE
Board of Governors of the Federal Reserve System
    20th Street and Constitution Avenue, NW
                      MS-300
             Washington, DC 20551

         or visit our hotline web page at:
http://www.federalreserve.gov/oig/oig_hotline.htm
